           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



REPRESENTATIVE VIDEO PROJECT


     August 2011   A-05-09-19101




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                         SOCIAL SECURITY
MEMORANDUM

Date:   August 4, 2011                                                          Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Representative      Video Project (A-05-09-19101)


        OBJECTIVE
        Our objective was to assess the Social Security Administration’s (SSA) effectiveness in
        implementing the Representative Video Project (RVP).

        BACKGROUND
        In December 2003, SSA published a final rule 1 authorizing the use of video
        teleconferencing (VTC) for disability adjudication hearings to provide greater scheduling
        flexibility, improved hearing efficiency, and additional service delivery options. SSA also
        stated that, in the future, the Agency might allow remote video sites to operate in private
        facilities owned by law firms. 2 In September 2008, under the Video Hearing backlog
        initiative, SSA expanded the use of VTC through RVP, 3 allowing representatives and
        claimants to attend VTC hearings at claimant representatives’ offices while the
        administrative law judge (ALJ) is at another location. Under RVP, participating claimant
        representatives are required to sign an agreement with SSA and procure their own
        video equipment (see Appendix B).

        SCOPE AND METHODOLOGY

        As part of this review, we interviewed Office of Disability Adjudication and Review
        (ODAR) officials concerning the implementation and operation of RVP. Additionally, we
        spoke to RVP participants and relevant organizations to learn about their experiences,
        analyzed RVP hearing data, and reviewed relevant regulations and legal issues


        1
         Video Teleconferencing Appearances Before Administrative Law Judges of the Social Security
        Administration, 68 Fed. Reg. 69003 (December 11, 2003).
        2
            Id. at 68 Fed. Reg. 69005.
        3
         RVP is part of the Commissioner’s initiative to increase the number of video hearings and reducing
        backlogs.
Page 2 - The Commissioner


associated with the project. We are not making any statements in the report opining on
the legal sufficiency of the agreement or RVP. See Appendix C for our full scope and
methodology.

RESULTS OF REVIEW
During the first 18 months of the RVP, the Chicago and Kansas City Regions used the
RVP sites extensively; both Regions had experienced significant hearing backlogs.
Four RVP sites in the Chicago and Kansas City Regions represented 71 percent of all
activity among the 23 RVP sites. About 48 percent of the RVP sites had fewer than
10 hearings. While some of the low usage related to new participation in the program,
in other cases, the RVP participants experienced problems related to faulty equipment
or scheduling issues. About 18 percent of the RVP hearings was conducted between
three or more locations, allowing experts and other parties at a third location to
participate. In terms of regional workloads, we found SSA used RVP as part of service
area realignments, allowing ALJs from one region to alleviate backlogs in another
region.

Before SSA implemented RVP, we found the Agency had limited communication with
the public. In addition, better communication by SSA with its employees and RVP
participants would have allowed all parties to more fully understand how the program
was to operate. This enhanced communication would have increased the probability of
identifying and addressing potential problems early in the process. Moreover, the
Agency did not (1) conduct a test or pilot of RVP before its nationwide implementation
or (2) monitor relevant RVP trends, such as low use by participants. Finally, during the
audit, some of the parties we interviewed raised potential legal issues related to RVP.
We believe the Agency should consider these issues if they have not already been
addressed.

RVP HEARING TRENDS

We reviewed RVP hearing data collected since the program began to assess trends
related to hearings by (1) location of the RVP site, (2) frequency of use at particular
RVP sites, (3) location of third-party connections, and (4) location of the ALJ.

Location of RVP Sites

From October 2008 to April 2010, 4 ODAR reported 1,952 disability hearings with RVP
participants. As of April 2010, 18 law firms and 1 State agency maintained certified
RVP equipment at 23 locations. These 23 RVP locations were in 8 of SSA’s 10 regions,
with no RVP sites in the Denver or Seattle Regions 5 (see Table 1 and Appendix D).
Approximately 84 percent of the hearings was held with claimants at RVP sites in the

4
  Our data related to the period October 29, 2008 to April 14, 2010. As of November 2, 2010, the count of
RVP hearings increased to 3,652 related to 21 law firms operating 26 RVP sites. Our analysis focuses on
the trends over the first 18 months of the program. See Appendix D for more on the RVP data.
5
    RVP is a voluntary program.
Page 3 - The Commissioner


Chicago and Kansas City Regions. 6 Both Regions have faced large backlogs over the
past few years. Another 12 percent of the claimants was located at RVP sites in the
Atlanta Region, with the remaining 4 percent of claimants in the other regions.

                Table 1: Location of RVP Sites and Volume of Hearings
                         (Hearings from October 2008 to April 2010)
                                                          Hearings at         Percent of
                     Region             RVP Sites1         RVP Sites          Hearings
            I. Boston                        2                  32                 1.6
            II. New York                     2                   9                 0.5
            III. Philadelphia                1                   0                N/A
            IV. Atlanta                      4                 236                12.1
            V. Chicago                       7                 960                49.2
            VI. Dallas                       2                  27                 1.4
            VII. Kansas City                 3                 686                35.1
            VIII. Denver                     0                   0                N/A
            IX. San Francisco                2                   2                 0.1
            X. Seattle                       0                   0                N/A
            Total                           23               1,952                100
           Note 1: Hearing locations relate to where the RVP equipment is operated as well as
                   where the claimant and his/her representative are generally located.

Frequency of Use at RVP Sites

Of the 23 RVP sites available during the first 18 months of the program, 4 sites
conducted about 71 percent of the RVP hearings (see Table 2). Two of these sites
were in the Chicago Region, and the other two were in the Kansas City Region.

             Table 2: Frequency and Volume of Hearings at 23 RVP Sites
                      (Hearings from October 2008 to April 2010)
                                                      Total Number of RVP
     Total Number of RVP           Number of            Hearings in Each
            Hearings               RVP Sites                Category                  Percent
     200 or More                       4                      1,389                      71.2
     100 to 199                        2                        349                      17.8
     10 to 99                          6                        195                      10.0
     Fewer than 10                    11                         19                       1.0
     Total                            23                      1,952                      100

As shown in Figure 1, while 4 RVP sites (17 percent) conducted 200 or more hearings,
another 11 RVP sites (48 percent) held fewer than 10 RVP hearings. Five of these
11 sites held no hearings during this period.




6
  In general, we are assuming the claimant and his/her representative are located together at the RVP
site. We discuss other scenarios later in this report.
Page 4 - The Commissioner


                        Figure 1: Frequency of Hearings at 23 RVP Sites
                           (Hearings from October 2008 to April 2010)
                                           17%
                                         (4 Sites)           9%
          48%                                             (2 Sites)
                                                                        200 or More Hearings (17%)
        (11 Sites)


                                                                        100 - 199 Hearings (9%)


                                                                        10-99 Hearings (26%)


                                                                        Fewer than 10 Hearings (48%)
                                          26%
                                        (6 Sites)


We discussed RVP issues with 10 law firms that represented 14 of the 23 RVP
locations. We learned that some of the lower usage related to confusion over the
scheduling of 3-way conferences allowing the claimant and claimant representative to
be in different locations. 7 In addition, some law firms mentioned that equipment
problems 8 and ALJ preferences 9 limited the use of the RVP equipment. For instance,
staff at one law firm noted that the RVP site first attempted to connect with a hearing
office in March 2010, but audio problems led to the hearing’s termination. Staff at the
firm stated that although the firm attempted to contact ODAR multiple times to fix the
problem, as of November 2010, the equipment was still not functioning. It was not clear
to the law firm staff what additional steps ODAR was taking to resolve the matter. 10 In
another case, staff at a law firm running two different RVP sites noted that each site had
different experiences based on the ALJs’ receptiveness to such hearings. In one case,
the RVP site was very productive, and in the other case, the site had held fewer than
10 hearings since it was established.




7
    We discuss this issue in the next section.
8
  The agreement between SSA and RVP participants states, “The representative will be solely
responsible for maintenance and troubleshooting of VTC equipment. However, SSA will provide ongoing
access to a help desk to assist in initial certification, equipment connectivity testing, and troubleshooting
the equipment and connections to the SSA network.” See Appendix B, Section III.
9
  The agreement between SSA and RVP participants states, “SSA makes no guarantee that the
representative-owned VTC equipment or site will be used for any particular hearing…The ALJ presiding
over the particular hearing will schedule the time and place of the hearing and will determine the manner
in which the various participants will appear before the ALJ (i.e., in person or by means of VTC).” See
Appendix B, Section III.
10
  We referred this and other cases to ODAR staff for follow-up. ODAR staff later contacted these RVP
participants to resolve the issues.
Page 5 - The Commissioner


Third-Party Connections

In our review of the first 18 months of RVP, we found that about 18 percent of all RVP
hearings had three or more parties involved. Usually, the three-way hearings involved a
vocational expert or hearing reporter at a different location from the ALJ, claimant, and
claimant representative. 11

We also identified 65 hearings, 12 or about 3 percent of all RVP hearings, where the
claimant was located at 1 site while the representative was alone at the RVP site. 13 In
43 of these hearings, the claimant was at a different location than the ALJ and claimant
representative. 14 In the other 22 hearings, the claimant was with the ALJ while the
claimant representative was at the RVP site. 15 At the time of our review, SSA was
planning to issue guidance clarifying when it was appropriate for a claimant and the
representative to be at different locations.

Location of ALJs

We also reviewed the RVP hearings in terms of the location of the ALJ conducting the
hearing to determine how regions were assisting each other under this program. We
found that during the first 18 months of the program, ALJs in the Chicago, Kansas City,
and Philadelphia Regions held the majority of hearings with RVP participants.
Together, ALJs in the Chicago and Kansas City Regions held about 49 percent of the
hearings during this period (see Table 3). Some of these hearings were conducted by
National Hearing Centers (NHC), which are now located in four regions.16




11
  The medical expert was at the same location as the ALJ about 98 percent of the time; the vocational
expert was at the same location as the ALJ about 84 percent of the time; and the hearing reporter was at
the same location as the ALJ about 82 percent of the time.
12
     The 65 hearings involved 10 different law firms.
13
   In June 2010, outside parties filed a lawsuit against SSA because of concerns that ALJs were not
allowing three-way hearings where the claimant and his/her representative were in different locations.
This lawsuit was dismissed on May 2, 2011.
14
   The agreement between SSA and RVP participants states, “The claimant and his or her representative
must both appear from the same representative-owned VTC site, except in instances where the ALJ
determined that it is in the best interests of the claimant to permit the claimant and his or her
representative to appear from separate locations. Examples of such exceptions would be when the
claimant lives in a remote area and there is limited access to representation within the standard 75-mile
commuting area, or the claimant moved to a different area of the country but wishes to keep a
representative with whom there is an existing business relationship.” See Appendix B, Section V.
15
     We found that the 22 hearings involved 5 different law firms.
16
  NHCs, which only conduct video hearings, operate in Albuquerque, New Mexico; Baltimore, Maryland;
Chicago, Illinois; Falls Church, Virginia; and St. Louis, Missouri. NHCs are directed by the Office of the
Chief ALJ in Falls Church, Virginia, rather than the Regional Chief ALJs.
Page 6 - The Commissioner


               Table 3: Locations of ALJs Conducting RVP Hearings by Region
                        (Hearings from October 2008 to April 2010)
                                                                            Percent of
                      Region of ALJ              RVP Hearing                Hearings1
                I. Boston                              39                        2.0
                II. New York                            4                        0.2
                III. Philadelphia                     355                      18.2
                IV. Atlanta                           206                      10.6
                V. Chicago                            480                      24.6
                VI. Dallas                             55                        2.8
                VII. Kansas City                      471                      24.1
                VIII. Denver                            5                        0.3
                IX. San Francisco                      19                        1.0
                X. Seattle                              3                        0.2
                NHC                                   315                      16.1
                Total                               1,952                       100
              Note 1: May not add to 100 percent because of rounding.

During this period, the Philadelphia Region had one authorized RVP site, though this
site held no hearings. With the exception of the Huntington, West Virginia, Hearing
Office, which held 21 hearings with the Atlanta Region, all of the hearings conducted by
ALJs in the Philadelphia Region were held with RVP sites in Ohio, which is located in
the Chicago Region (see Figure 2). Most of these hearings were between the RVP site
in Youngstown, Ohio, and the Seven Fields, Pennsylvania, Hearing Office. 17 Of the
299 RVP hearings conducted by ALJs in the Seven Fields Hearing Office, 287 hearings
(96 percent) were with the Youngstown RVP site. 18 This inter-regional assistance to the
Youngstown area was part of the Agency’s Service Area Realignment initiative, which
modified the responsibilities of the two regions. 19




17
     Seven Fields, Pennsylvania, is about 18 miles north of Pittsburgh, Pennsylvania.
18
 About 90 percent of the RVP hearings for the Youngstown RVP site were with the Seven Fields
Hearing Office.
19
   Under a service area realignment, claimants in one part of the country are assigned to a hearing office
in another part of the country to alleviate hearing backlogs.
Page 7 - The Commissioner


         Figure 2: RVP Hearings Conducted by ALJs in the Philadelphia Region
                      (Hearings from October 2008 to April 2010)

                                              299
                                    300
           Number of RVP Hearings

                                    250

                                    200

                                    150

                                    100
                                                            32             21
                                     50
                                                                                         2             1
                                      0
                                          Seven Fields, Morgantown,   Huntington,   Charleston,   Norfolk, VA
                                              PA            WV           WV            WV
                                                                  Hearing Office

IMPLEMENTATION OF RVP

We identified a number of issues that required attention, including (1) improved
communication with the public, Agency employees, and RVP participants; (2) additional
measures and monitoring of RVP; and (3) a review of RVP-related legal issues. We
shared some of these concerns in an April 2010 Early Alert to the Agency. 20

Communication

We found that SSA had limited communication with the public before RVP was
implemented; needed to provide additional guidance for employees involved in the
project; and could improve its communication with RVP participants.

Communication with the Public

After the 2003 final rule regarding VTC, 21 SSA did not provide additional public notices
in the Federal Register pertaining to RVP. While such notification was not required,
potentially interested stakeholders did not have sufficient opportunity to voice their
interests and concerns regarding the operation of RVP. In addition, this public notice
would have provided information to potential participants from the time the program
started.

We also found that the 2003 final rule made statements about the operation of RVP that
later changed without additional public notice clarifying the Agency’s procedures. For

20
   We periodically provide SSA management with preliminary findings and recommendations when an
issue merits attention before an audit is completed.
21
     68 Fed. Reg. 69003.
Page 8 - The Commissioner


instance, the 2003 final rule defined VTC, which would eventually encompass RVP, as
a remote site program. 22 A remote site should be a location at least 75 miles from a
hearing office. However, the physical location of more than half the RVP sites did not
meet this definition. 23 Moreover, the 2003 final rule does not define three-way
conferences to include situations where the ALJ, claimant, and claimant representative
are in three different locations.24

ODAR staff informed us the Agency mentioned RVP to attendees at claimant
representative conferences. We interviewed representatives from the National
Organization of Social Security Claimants’ Representatives (NOSSCR), the National
Association of Disability Representatives (NADR), and RVP participants. The NOSSCR
representatives stated its members were using RVP, whereas the NADR representative
stated its membership comprised mostly individuals and small entities who would not
have the volume of hearings with SSA to justify the cost of RVP equipment.

A NOSSCR representative indicated that an ODAR official contacted them before the
start of RVP and described the project as a “pilot.” The former Deputy Commissioner of
ODAR requested a list of law firms that might be interested in the new program, and the
NOSSCR representative forwarded a list of 25 members in February 2008. We found
that 12 of the 23 RVP sites were associated with law firms on the NOSSCR list.
ODAR management told us they were developing RVP-related videos to post to the
Agency’s Website, thereby providing additional notification to the public. However,
ODAR may delay this outreach effort until it is certain the Agency will have sufficient
capacity to handle new RVP participants. ODAR management said the Agency was
planning to modify the RVP communications platform. 25 While SSA expects the new
communication lines to be less expensive to maintain, the volume of RVP participants
could increase beyond the capacities of SSA’s network.

Communication with Agency Employees

We found ODAR could have improved its outreach to Agency employees pertaining to
RVP to inform all parties of the intent and operation of the program. Such outreach is
particularly important for the ALJs, who decide whether to use RVP as part of their
hearings.

ODAR provided RVP training to regional and hearing office representatives 26 via
teleconferences during the first 6 months of the RVP. The representatives were asked
22
     68 Fed. Reg. 69003 and 69005.
23
   While the service area realignment allows some RVP sites to become “remote” sites to hearing offices
in other parts of the country, this may be a temporary phenomenon. We discuss this in the next section.
24
     Only medical and vocational experts were cited as additional parties in three-way connections.
25
  ODAR management said the Agency planned to change the communication lines from Integrated
Services Digital Network lines to Internet Protocol lines.
26
  Primary participants included hearing office directors, hearing office systems administrators, and
hearing schedulers.
Page 9 - The Commissioner


to share this information with other employees. However, we found very little
information on RVP available on ODAR’s Website for individuals who did not receive
this training or needed a point of contact for additional information. For instance, while
ODAR’s Intranet maintained a number of helpful online resources related to programs at
the hearing offices, RVP-related information on the Agency’s Website was limited to the
name of the RVP participants. After discussing our audit findings with ODAR
management, ODAR staff updated the Agency’s Video Hearing Web Site with additional
information, including instructions for scheduling RVP hearings as well as contacts for
local troubleshooting. We believe this additional guidance and information will be
helpful to ODAR employees.

The role and operation of RVP generated questions among some ALJs. In our
discussions with ODAR management in field locations, we learned that the Regional
Chief ALJs (RCALJ) were initially responsible for signing agreements with the RVP
participants, but this responsibility was later relocated to the Office of the Chief ALJ. 27
In at least one instance, we learned that an RCALJ was uncomfortable signing such
agreements because of the loss of control over the hearing environment, lack of Agency
monitoring, and unclear practices by some law firms.

We discussed the RVP process with the Association of Administrative Law Judges
(AALJ) 28 to learn about some of the ALJ experiences with the equipment. An AALJ
representative noted the organization was opposed to RVP for a number of reasons, 29
including

•    RVP presents a strong temptation for someone in the representative’s office to
     prompt testimony from the claimant from a position not seen by the ALJ at the other
     end of the camera; 30




27
 For example, the earlier version of the agreement between SSA and RVP participants stated the
RCALJ retains the responsibility for terminating RVP sites in noncompliance with the agreement. The
most recent version of the agreement replaces “RCALJ” with “SSA.”
28
  The AALJ is a union representing ALJs employed at SSA. The AALJ started as a professional
association. In 1999, it became a nationally recognized union as the AALJ, International Federation of
Professional and Technical Engineers, American Federation of Labor and Congress of Industrial
Organizations.
29
  The AALJ also has an opportunity to share concerns with ODAR management via quarterly Joint
Technology Advisory Committee meetings, which comprises two AALJ representatives and two
management ALJs.
30
   RVP participants are required to procure equipment that allows an ALJ to view the entire room. The
agreement between SSA and RVP participants states, “The private VTC camera should have the ability
to pan and zoom to offer complete views of the room, as well as close up views. The size of the monitor
may vary somewhat depending on how far participants are seated away from the monitor and camera.
However, the room must have sufficient depth to permit the camera to pan and zoom so as to visualize
the entire room or individual participants.” See Appendix B, Attachment I.
Page 10 - The Commissioner


•      RVP may lead to unhealthy relationships between vocational experts and the
       representatives as they spend more time at the RVP site; 31
•      third parties participating in RVP hearings cause the video screen to be split,
       reducing the size of the images on the screen and the ALJ’s ability to observe the
       participants; 32
•      third-party hearings are difficult to set up; 33
•      RVP represents SSA outsourcing an inherently governmental function; 34 and
•      RVP creates the potential for large firms to drive out smaller practitioners. 35

Continued communication regarding RVP, as well as ongoing training and support,
could help alleviate some of these concerns.36

Communication with RVP Participants

In our discussions with NOSSCR members and other RVP participants, the majority of
the RVP participants asked for a designated point of contact in ODAR to address
questions about the program. In addition, half the RVP participants we spoke with
indicated additional program guidance would also be helpful.

When asked about appropriate points of contact, ODAR management stated the
Agency provided RVP participants with two email addresses as part of the application
process: one related to general RVP questions and the second related to technical
problems.37 Additionally, the Agency initially provided RVP participants with telephone
numbers to reach technical personnel with scheduling issues, though ODAR did not
maintain an RVP-specific telephone number to address general questions.38 Given the


31
  Our audit work found few instances of vocational experts at RVP sites. In our review of the first
18 months of the program, we found that of the more than1,500 hearings involving vocational experts,
only 4 instances involved the expert at the RVP site.
32
  We discussed this point with ODAR technical staff and learned the underlying technology for RVP
hearings limits the user’s ability to control a split screen, whereas it is less problematic with hearings
involving only SSA components.
33
     This additional work associated with third-party hearings applies to all VTC hearings.
34
     We discuss this issue later in the report.
35
     Id.
36
  The Agency and affected parties could have been reviewed these issues as part of a Federal Register
announcement specific to RVP, as noted earlier, or even an RVP pilot, as we note later in this report.
37
  The agreement between SSA and the RVP participants states, “SSA will provide ongoing access to a
help desk to assist in initial certification, equipment connectivity testing, and troubleshooting the
equipment and connections to the SSA network.” See Appendix B, Section III.
38
     Email assistance can be less timely and/or accessible than a telephone number.
Page 11 - The Commissioner


RVP participants’ request for additional outreach, ODAR may need to remind these
participants periodically of the available program contacts to ensure timely resolution of
concerns.

We also found that SSA program staff had not routinely conducted RVP site visits even
though SSA reserved the right to do so in the RVP agreement. Such visits provide the
Agency an opportunity to answer outstanding questions; view the RVP equipment and
private conference room space; and verify compliance with various legal provisions,
such as the Americans with Disabilities Act of 1990. 39

While the RVP representatives we spoke with had worked via telephone with a technical
person to set up the RVP equipment, most of the RVP participants we spoke with did
not remember an SSA visit. A staff member at one RVP location noted that he had to
set up his own informal point of contact in SSA to resolve equipment issues, since SSA
did not formally provide a name. This staff member noted that regular communication,
or at least a warning when changes are underway, would be helpful. For example, he
related an incident in which his firm started having problems with the equipment in
November 2009, and it was not until February 2010 that he indirectly learned the
problem related to a telephone upgrade at SSA.

Toward the end of our audit work, we learned that ODAR’s Office of the Deputy
Commissioner conducted an informal survey of eight active RVP participants of various
sizes in July and August 2010. 40 According to ODAR management, the RVP
participants were generally happy with the program. The survey also identified a few
technical issues that ODAR can address through additional training. 41

The director over the RVP said his team was planning a more formal survey to each
RVP participant asking about their experiences with the program—the Agency’s first
survey to all RVP participants. We believe this second survey to all RVP participants
will assist ODAR by gauging overall user satisfaction and identifying factors associated
with high and low use of the program. This survey also provides ODAR with another
opportunity to ensure participants have up-to-date points of contact regarding future
concerns and questions.




39
  Pub. L. No. 101-336, 104 Stat. 327, as amended by the ADA Amendments Act of 2008, Pub. L. No.
110-325, 122 Stat. 3553, codified at 42 U.S.C. § 12101 et seq.
40
  Four of the 8 RVP participants overlapped with the 10 participants we contacted as part of our audit.
Unlike ODAR, we contacted both active and inactive RVP participants, as noted earlier in this report.
41
  The ODAR team responsible for administering RVP was unaware of this earlier survey. While we
commend the outreach effort, timely sharing of results with appropriate parties can assist with the
administration of the program and ensure follow up on open issues.
Page 12 - The Commissioner


Testing and Monitoring

ODAR implemented RVP without first measuring its effectiveness or efficiency, as it did
with the VTC program. In addition, ODAR was not initially monitoring the project,
though it began monitoring some of the workload trends for RVP participants.

Piloting RVP

Our review of documentation found that SSA initially planned to test RVP as a pilot, and
drafted a proof-of-concept document that would have measured the success of RVP.
This document also proposed a later evaluation of RVP. However, the Agency
eventually decided to implement RVP without using a pilot or targeted performance
measures, since it would delay the start of the program. This approach was very
different from the VTC program where the Agency tested VTC at pilot sites, evaluated
management information to determine its effectiveness, and addressed equipment
problems (see Appendix E).

Had the Agency implemented RVP as a pilot, it would have had the opportunity to learn
about both beneficial and problematic issues related to RVP, thereby enhancing any
later RVP expansion. For example, the collection of performance data and a review of
the pilot’s operation should have highlighted the confusion regarding three-way hearings
before full implementation.

A pilot could have also allowed for analysis of how distance from a hearing office can
influence the likelihood that participants will use an RVP site. ODAR staff told us that
any law firm at any location could participate in the program, though RVP participants
with few or no hearings indicated their proximity to a hearing office made it less likely
the ALJ would hold a video hearing versus a face-to-face hearing. 42

The Agency’s establishment of new hearing offices could further modify the use of
existing RVP sites. For example, during the first 18 months of RVP, Ohio had 4 hearing
offices and 6 of the 23 RVP sites. Because of a lack of hearing capacity in Ohio during
this time, offices in the Chicago Region and nationwide used the RVP sites as part of
their assistance with the hearings backlog. However, in August 2010, SSA opened two
new hearing offices in Toledo and Akron, Ohio, which is likely to lessen the need for
some RVP sites. One of the more active RVP sites, with more than 300 hearings in the
first 18 months of the program, is located in Akron, Ohio. With this RVP site now
operating within the 75-mile radius of the new Akron Hearing Office, it is likely that the
need for this particular RVP site will lessen.

Monitoring

At the start of our audit, after RVP had been in place for over 1 year, we found that the
Agency had little management information, such as the frequency of hearings at
particular RVP sites, the locations of various participants, or time and cost savings
related to its use. After we issued our April 2010 Early Alert, ODAR provided us with a
42
     Both a face-to-face and video hearing generally require the hearing office to occupy a full hearing room.
Page 13 - The Commissioner


newly created Disability Adjudication Reporting Tools (DART) report that contained
information on RVP hearings, such as the number of hearings and the location of
participants.43 While ODAR was producing this report, we saw no indication that ODAR
staff was using this information to monitor RVP actively. According to ODAR
management, the Agency was tracking RVP data at an aggregate level. The only
specific RVP element regularly monitored was the number of times hearing offices had
rejected a request for an RVP hearing. ODAR was not actively monitoring other trends
already identified in this report, such as non-use of the equipment. We believe
expanded monitoring will provide managers with additional indications of potential
problems.

Legal Concerns

During our audit, the ALJs in ODAR and the AALJ raised a number of legal issues.
These issues include whether the Agency’s RVP program would (1) transfer inherently
governmental functions to private law firms and/or impede inherently governmental
functions of ALJs; 44 and (2) create an unfair competitive advantage for participants. 45
For instance, some may interpret the limited information shared with the public on the
program, combined with direct solicitation of participants from a private organization, as
creating an unfair advantage for those directly invited.

In our discussions with staff in SSA’s Office of the General Counsel (OGC), we learned
that OGC reviewed the draft agreement between SSA and the RVP participants.
However, OGC’s staff was not certain whether the Agency ever considered the issues
referenced above or, if so, whether OGC was asked for an opinion on these issues
during the RVP planning process or implementation. In light of the fact that these
issues have been noted by various parties, we believe they should be reviewed by
appropriate parties to the extent they have not already been addressed by the Agency.
A full review of these issues offers greater assurance that RVP operates in accordance
with applicable Federal law, regulation, and Agency policy, while also protecting the
interests of both the public and the Agency.

CONCLUSION AND RECOMMENDATIONS
We found that while the majority of RVP initial activity was limited to a few RVP sites,
the program assisted the Agency with hearings in backlogged regions. RVP offers the
Agency an opportunity to expand video hearing capacity during a period of large
backlogs and limited resources.46 That said, additional steps while participation in RVP
is still relatively low could strengthen the program’s foundation and improve its chances

43
  ODAR staff noted that the report may not be complete since it was recently created and was trying to
rebuild past events. Our analysis of these data found they were generally reliable.
44
     FAR § 7.503.
45
     FAR § 6.101(a).
46
  Because of budget constraints, in March 2011 the Commissioner stated the Agency would not open
eight planned hearings offices.
Page 14 - The Commissioner


for success in the future. We believe improved external and internal communication,
expanded monitoring, and a review of potential legal issues not already addressed will
enhance RVP while also protecting the interests of the public and the Agency.

To enhance communication related to RVP, as well as monitor RVP workloads and
outcomes, we recommend SSA:

1. Provide the public with current information on RVP in an easily accessible format,
   such as a Website, to ensure potentially interested parties are aware of the program.

2. Continue to educate SSA employees on the role and operation of RVP and solicit
   feedback to improve the program, particularly from ALJs who decide the manner in
   which the various participants must appear before them.

3. Periodically contact RVP participants to assess their experiences with RVP and
   highlight key points of contact for general and technical issues.

4. Expand the use of the DART report and other appropriate management information
   to monitor the use of RVP and identify potential problems.

5. Address any unresolved RVP legal issues discussed in the report.

AGENCY COMMENTS
The Agency agreed with our first four recommendations. In response to the last
recommendation, the Agency noted that it conducted an additional review of legal
analyses related to RVP from 2004 to present and does not believe there are any
unresolved RVP legal issues at this time.




                                        Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Representative Video Project Agreement

APPENDIX C – Scope and Methodology

APPENDIX D – Representative Video Project Participants

APPENDIX E – Video Teleconferencing Pilot and Public Notification

APPENDIX E – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                                        Appendix A

Acronyms
 ALJ               Administrative Law Judge
 AALJ              Association of Administrative Law Judges
 DART              Disability Adjudication Reporting Tools
 GAO               Government Accountability Office
 NADR              National Association of Disability Representatives
 NHC               National Hearing Center
 NOSSCR            National Organization of Social Security Claimants’ Representatives
 ODAR              Office of Disability Adjudication and Review
 OGC               Office of the General Counsel
 OIG               Office of the Inspector General
 OTSO              Office of Telecommunications and Systems Operations
 RCALJ             Regional Chief Administrative Law Judge
 RVP               Representative Video Project
 SSA               Social Security Administration
 VTC               Video Teleconferencing
 Legal Citations
 FAR               Federal Acquisition Regulation
 Fed. Reg.         Federal Register
 Pts.              Parts
 Pub. L. No.       Public Law Number
 U.S.C.            United States Code
                                                                          Appendix B

Representative Video Project Agreement
Below we provide some relevant excerpts from the Representative Video Project (RVP)
agreement (Agreement) between a claimant representative and the Social Security
Administration (SSA) for use of representative-owned Video Teleconference (VTC)
equipment in Administrative Law Judge (ALJ) hearings. 1

I. PURPOSE

•     The purpose of this Agreement is to provide to a representative of Social Security
      claimant(s) (Representative) the opportunity to use privately owned VTC equipment
      to participate in hearings conducted by ALJs of SSA’s Office of Disability
      Adjudication and Review (ODAR). RVP provides efficient and cost effective
      alternative means of conducting hearings and improving SSA’s service to the public.
      Using representative-owned VTC equipment to participate in hearings offers
      claimants and their representatives an opportunity to save time and travel costs that
      they would otherwise incur by appearing at a hearing in person.

III. DISCLAIMERS

•     Participation by the representative in this representative-owned VTC program is
      voluntary. SSA will not bear any of the costs for the acquisition, installation, or
      operation of a representative-owned VTC equipment and site.

•     The representative will be solely responsible for maintenance and troubleshooting of
      VTC equipment. However, SSA will provide ongoing access to a help desk to assist
      in initial certification, equipment connectivity testing, and troubleshooting the
      equipment and connections to the SSA network.

•     Prior to use in hearings, all representative-owned VTC equipment must be tested
      and certified by SSA’s Office of Telecommunications and Systems Operations
      (OTSO) as compatible with SSA network equipment, and its ability to connect to the
      SSA network through the public and video connectivity sufficient for the conduct and
      recording of an ALJ hearing.

•     SSA makes no guarantee that the representative-owned VTC equipment or site will
      be used for any particular hearing. Scheduling of hearing by VTC equipment will be
      subject to the availability of video equipped ODAR hearing space. The ALJ presiding
      over the particular hearing will schedule the time and place of the hearing and will
      determine the manner in which the various participants must appear before the ALJ
      (i.e., in person or by means of VTC).

1
    This version of the Agreement was dated July 28, 2010.


                                                    B-1
IV.A. SSA RESPONSIBILITIES

•   A representative of SSA might request to meet with the representative at the
    representative's VTC site prior to certification or at a later date. If SSA deems that a
    meeting is necessary, the SSA representative may inspect the site to ensure that it
    meets, or continues to meet, all the requirements necessary to participate as a
    representative-owned VTC site.

IV.B. REPRESENTATIVE RESPONSIBILITIES

•   Adhere to all requirements and claimant protections established in the agreement.

•   Inform the hearing office that it wishes to schedule a hearing using representative-
    owned VTC equipment by adding a comment to that effect in the comment block of
    the existing Request for Hearing (Form HA-501-US), or by informing the hearing
    scheduler when he or she contacts the representative to schedule the hearing.

V. CLAIMANT PROTECTIONS

•   The claimant and his or her representative must both appear from the same
    representative-owned VTC site, except in instances where the ALJ determines that it
    is in the best interests of the claimant to permit the claimant and his or her
    representative to appear from separate locations. Examples of such exceptions
    would be when the claimant lives in a remote area and there is limited access to
    representation within the standard 75-mile commuting area, or the claimant moves
    to a different area of the country but wishes to keep a representative with whom
    there is an existing business relationship.

•   The representative must obtain advance permission from the presiding ALJ and the
    claimant before permitting any persons whose presence is not ordinarily required for
    the hearing proceeding to be present in the representative’s VTC room during the
    hearing and/or to see or hear any part of the hearing.

•   An ALJ presiding at a hearing conducted in connection with this program may
    postpone the hearing if the ALJ learns that the representative or the representative’s
    VTC site may not be in compliance with the rules, instructions, protocols, and
    requirements of this program. The ALJ will alert management about his or her
    concerns. Management will then investigate and determine if any deficiencies are
    present.

•   If technical difficulties arise that affect the quality of the video or audio transmissions,
    hearing office staff, the representative’s technical staff and the OTSO help desk will
    work to isolate the source of the problem and correct it, if possible. ODAR will make
    every attempt to complete scheduled hearings. If hearings cannot be completed as
    scheduled due to technical difficulties, the ALJ may reschedule the hearing to be
    held in person or via an SSA VTC site. If the source of the technical difficulty is


                                              B-2
    determined to be equipment or connectivity at the representative’s VTC site, the
    representative will be responsible for making any necessary repairs or adjustments
    prior to being allowed to participate in any future hearings from the representative’s
    VTC site.

VII. TERMINATION

•   SSA may terminate this Agreement if the Representative fails to abide by any of the
    provisions of this Agreement with respect to such site.

•   Any ongoing technical difficulties determined to be caused by equipment or
    connectivity at the representative-owned VTC site may result in that site losing its
    certification. Before cancelling the site certification or terminating this Agreement,
    SSA will notify the Representative in writing of its intent to cancel the site certification
    or to terminate this Agreement and the reason for such action. SSA will give the
    Representative twenty (20) calendar days to correct the technical difficulties
    threatening its certification or to contest the termination in writing, as applicable.
    SSA will then determine whether to cancel the site certification or to terminate the
    Agreement and will issue a written notice of cancellation or termination.

ATTACHMENT 1. EQUIPMENT SPECIFICATIONS/PROTOCOLS FOR PRIVATE
VTC SITES

•   The private VTC camera should have the ability to pan and zoom to offer complete
    views of the room, as well as close up views. The size of the monitor may vary
    somewhat depending on how far participants are seated away from the monitor and
    camera. However, the room must have sufficient depth to permit the camera to pan
    and zoom so as to visualize the entire room or individual participants.

ATTACHMENT 2. FACILITY REQUIREMENTS FOR PRIVATE VTC SITES

•   The site must meet the accessibility requirements established in Title III of the
    Americans with Disability Act and Sections 504 and 508 of the Rehabilitation Act.




                                              B-3
                                                                      Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed the applicable Federal laws and regulations, as well as the Social Security
    Administration’s (SSA) policies and procedures, to identify requirements related to
    video teleconferencing and the Representative Video Project (RVP).

•   Reviewed the Agency’s backlog reduction initiatives to identify those related to RVP.

•   Reviewed the language in the agreement between SSA and RVP participants.

•   Interviewed Office of Disability Adjudication and Review (ODAR) officials to discuss
    RVP’s roll-out, operation, and monitoring.

•   Interviewed RVP participants from 10 law firms representing 14 RVP sites operating
    as of April 2010 to obtain their experiences and comments regarding RVP.

•   Interviewed staff and officials at the National Organization of Social Security
    Claimants’ Representatives, National Association of Disability Representatives, and
    Association of Administrative Law Judges to obtain their comments regarding RVP.

•   Analyzed ODAR’s Disability Adjudication Reporting Tools report to identify the
    number of RVP hearings, the number of hearings per RVP site, and where these
    hearings were conducted in terms of both the RVP site as well as the judge holding
    the hearing. We also identified the number of two-way versus three-way or more
    RVP hearings.

•   Discussed our findings with ODAR staff and management.

We found the RVP data to be sufficiently reliable to meet our objective. We are not
making any statements in the report opining on the legal sufficiency of the agreement or
RVP. As noted in the report, we believe this is the Agency’s responsibility when starting
any new program. We performed our audit at the Office of Audit in Chicago, Illinois,
between November 2009 and December 2010. The principle entity audited was the
Office of the Associate Commissioner of Disability Adjudication and Review. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objective. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective.
                                                                        Appendix D

Representative Video Project Participants
Our data represent two periods in the Representative Video Project (RVP): (1) the first
18 months of the program and (2) the program as of November 2010 (see Table D-1).
From October 29, 2008 to April 14, 2010, ODAR reported 1,952 disability hearings with
19 law firms operating 23 RVP sites. From October 29, 2008 to November 2, 2010,
ODAR reported 3,652 disability hearings with 21 law firms operating 26 RVP sites.

         Table D-1: Total Numbers of RVP Hearings for Each RVP Participant
                                                                  Number of    Number
              Date                                                   RVP        of RVP
 RVP        Equipment     RVP Participant                          Hearings    Hearings
  Site       Certified      Location            ODAR Region        (4-14-10)   (11-2-10)
RVP1          10-17-08            Missouri         Kansas City         236           353
RVP2          10-21-08      Massachusetts              Boston           32            44
RVP3          11-12-08              Florida            Atlanta         198           359
RVP4           12-1-08                  Ohio          Chicago          151           245
RVP5           12-8-08            Missouri         Kansas City         450           954
RVP6          12-30-08             Georgia             Atlanta          15            15
RVP7           1-12-09                  Ohio          Chicago          383           628
RVP8           2-10-09                  Ohio          Chicago           90           281
RVP9           3-11-09           Kentucky              Atlanta          21            29
RVP10          3-25-09       Pennsylvania         Philadelphia           0             0
RVP11         11-19-09                  Ohio          Chicago            5            36
RVP12          5-21-09           Arkansas               Dallas          27            46
RVP13          5-21-09               Texas              Dallas           0             0
RVP14          5-30-09                  Ohio          Chicago          320           463
RVP15          12-1-09                  Ohio          Chicago            1            10
RVP16          12-1-09          New York             New York            7            16
RVP17          12-1-09          New York             New York            2             3
RVP18          12-1-09              Florida            Atlanta           2             3
RVP19          12-1-09               Illinois         Chicago           10            44
RVP20          12-1-09           California      San Francisco           2             5
RVP21          1-11-10             California    San Francisco          0             0
RVP22            3-1-10             Missouri       Kansas City          0            92
RVP23          3-11-10              Vermont            Boston           0            22
RVP24            6-1-10             Missouri       Kansas City       N/A              4
RVP25           8-27-10                Ohio           Chicago        N/A              0
RVP26         10-14-10               Virginia      Philadelphia      N/A              0
Totals                                                              1,952         3,652
                                                                               Appendix E

Video Teleconferencing Pilot and Public
Notification
In 1996, the Social Security Administration (SSA) published a Notice of Social Security
Ruling, 1 which explained that the Agency planned to explore ways for claimants to do
business with it electronically. Video teleconferencing (VTC) was one of the
technologies SSA identified as having the potential to better serve claimants.

In January 2001, SSA issued a Notice of Proposed Rulemaking related to VTC. 2 In the
Notice, SSA stated that, in 2000, it conducted VTC hearings between the Huntington,
West Virginia, Hearing Office and its Prestonsburg, Kentucky, remote location; the
Albuquerque, New Mexico, Hearing Office and its El Paso, Texas, remote site; and the
West Des Moines, Iowa, Hearing Office with tie-in to the Iowa Communications
Network. At the beginning of these tests, all three sites had some equipment problems.
Participation rates at Huntington-Prestonsburg and Albuquerque-El Paso were low, but
the Iowa test had over 40-percent participation rate. SSA surveyed participants from
the three tests to assess customer satisfaction with VTC hearings. The Iowa
respondents rated the VTC hearings as convenient and good.

SSA test data showed that the processing time for VTC hearings was substantially
shorter than for in-person remote location hearings during the same time period, and
the ratio of hearings held to hearings scheduled was significantly higher for VTC
hearings than for in-person hearings. SSA also discussed the location of expert
witnesses if the experts would not be available at a hearing location.

In February 2003, SSA issued Final Rules with Request for Comment 3 related to VTC in
the Federal Register. SSA received seven comments, one of which was concerning
whether the proposal to give claimants the right to veto the use of VTC to conduct the
appearances of expert witnesses. SSA concluded that claimants should not be
empowered to veto use of VTC to take the testimony of expert witnesses. This caused
SSA to reevaluate the proposal in that regard.




1
    Electronic Service Delivery, 61 Fed. Reg. 68808 (December 30, 1996).
2
  Scheduling Video Teleconference Hearings Before Administrative Law Judges, 66 Fed. Reg. 1059
(January 5, 2001).
3
 Video Teleconferencing Appearances Before Administrative Law Judges of the Social Security
Administration, 68 Fed. Reg. 5210 (February 3, 2003).



                                                   E-1
In December 2003, SSA published a Final Rule 4 authorizing the use of VTC for
disability adjudication hearings to provide greater scheduling flexibility, improved
hearing efficiency, and additional service delivery options. In this document, SSA
stated,

        We are investigating sharing VTC facilities with other federal agencies and
        states, and, if we can ensure privacy, we may eventually rent commercial space
        to expand use of VTC as a service delivery option. Calling into SSA’s VTC
        network from private facilities, such as facilities owned by a law firm, may also
        be possible. 5




4
 68 Fed. Reg. 69003 (December 11, 2003). This Final Rule adopted the earlier language in 68 Fed.
Reg. 5210.
5
    68 Fed. Reg. 5210 and 5211.


                                                 E-2
                  Appendix F

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      July 8, 2011                                                            Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Representative Video Project” (A-05-09-19101)--
           INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                          F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“REPRESENTATIVE VIDEO PROJECT (RVP)” (A-05-09-19101)

Recommendation 1

Provide the public with current information on RVP in an easily accessible format, such as a
Website, to ensure potentially interested parties are aware of the program.

Response

We agree. In March 2011, we published “Electronic Services for Appointed Representatives”
(Publication Number 07-070), a brochure that contains information about RVP. We also will
update our www.socialsecurity.gov website with additional RVP information. We will continue
to educate claimant representatives at conferences of the National Organization of Social
Security Claimants’ Representatives and the National Association of Disability Representatives.

Recommendation 2

Continue to educate SSA employees on the role and operation of RVP and solicit feedback to
improve the program, particularly from administrative law judges (ALJ) who decide the manner
in which the various participants must appear before them.

Response

We agree. In August 2011, we will host the Annual Judicial Education Program for ALJs. We
will include a session on video hearings and the merits of RVP.

In May 2011, as part of an ongoing effort, we trained more than half of our hearing office system
administrators on video issues, including RVP. In addition, we have an extensive Intranet
website that includes:

       •   An overview of RVP;
       •   Information on how to schedule RVP hearings;
       •   A troubleshooting guide; and
       •   A list of all certified RVP sites.

Recommendation 3

Periodically contact RVP participants to assess their experiences with RVP and highlight key
points of contact for general and technical issues.

Response

We agree. We have established a dedicated RVP electronic mailbox where representatives may
submit their concerns and questions. We are exploring other options for soliciting participants’
feedback, including ongoing outreach to current RVP participants and periodic surveys.


                                               F-2
Recommendation 4

Expand the use of the Disability Adjudication Reporting Tools (DART) report and other
appropriate management information to monitor the use of RVP and identify potential problems.

Response

We agree. We actively monitor RVP usage from various data sources including DART. The
Case Processing and Management System is also an information source, and with recent
upgrades, we now use it to monitor RVP usage. When there is a significant fluctuation in the
number of RVP hearings at a site, we contact the site to identify the cause.

Recommendation 5

Address any unresolved RVP legal issues discussed in the report.

Response

We disagree. In response to your audit, we conducted an additional review of legal analyses
related to RVP from 2004 to present and do not believe there are any unresolved RVP legal
issues at this time.




                                              F-3
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division
   Deborah Kinsey, Audit Manager, Chicago Audit Office

Acknowledgments

In addition to those named above:

   Wai Ho Yung, Auditor-in-Charge
   Elizabeth Ochoa, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-05-09-19101.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
